OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/ PHILIPPINES‟
MICROENTERPRISE ACCESS
TO BANKING SERVICES
PROGRAM, PHASE FOUR

AUDIT REPORT NO. 5-492-12-005-P
MAY 24, 2012




MANILA, PHILIPPINES
Office of Inspector General


May 24, 2012

MEMORANDUM

TO:                  USAID/Philippines Acting Mission Director, Reed Aeschliman

FROM:                Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:             Audit of USAID/Philippines‟ Microenterprise Access to Banking Services
                     Program, Phase Four (Report No. 5-492-12-005-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft and have included them in Appendix II of this report.

This report contains two recommendations to assist the mission in improving certain aspects of
the program. After reviewing information provided by the mission in response to the draft report,
we determined that management decisions have been reached on both recommendations.
Please provide the Audit Performance and Compliance Division of USAID‟s Office of the Chief
Financial Officer with evidence of final action to close these recommendations.

I would like to thank you and your staff for the cooperation and courtesies extended to us during
this audit.




U.S. Agency for International Development
PNB Financial Center, 8th Floor
Roxas Blvd. 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

     Progress Lagged on Four Objectives .................................................................................... 4

     Access to Microfinance Declined in the Autonomous Region of Muslim Mindanao ................ 6

     Mission Did Not Plan an Evaluation of Phase Four ............................................................... 7

     A Poverty Assessment Tool Produced Questionable Results ................................................ 8

     Mission Did Not Complete Contractor Performance Reviews as Required ............................ 8

Evaluation of Management Comments.................................................................................. 10

Appendix I—Scope and Methodology ................................................................................... 11

Appendix II—Management Comments .................................................................................. 13

Appendix III—Targets and Results ........................................................................................ 17
SUMMARY OF RESULTS
Increasing access to credit is a way to help entrepreneurs living in poverty increase their
economic activity and income, generate employment, and improve the overall quality of their
lives. Data from the Philippine National Statistics Office indicates that microenterprises1 make
up approximately 90 percent of all businesses in the Philippines, employ more than 30 percent
of the country‟s workforce, and are the primary source of livelihood for about 40 percent of
households. Most microenterprises in the Philippines have not been able to grow because they
have not had access to reasonably priced credit. Banks have not been willing to lend to
microenterprises because bankers believed that, given the small size of the loans, the interest
earned would be insufficient to cover their administrative costs. Additionally, banks required
loans to be secured with collateral, which most microenterprise owners (microentrepreneurs) did
not have.

On April 30, 2008, USAID/Philippines awarded a $9.7 million, time-and-materials task order
under the Global Business, Trade, and Investment II indefinite quantity contract to Chemonics
International Inc. (Chemonics). The task order, from May 1, 2008, through March 1, 2013, was
to implement Phase Four of the Microenterprise Access to Banking Services (MABS) Program.2
As of March 19, 2012, the mission planned to reduce the task order ceiling price to $7.6 million
and end the program early, on September 30, 2012; the mission subsequently revised targets
accordingly. As of October 2011, cumulative obligations and disbursements under the program
totaled $7.6 million and $5.6 million, respectively.

Phase Four of the MABS program aimed to build on microfinance services provided during the
first three phases of the program and has six primary objectives (Table 1). Chemonics was to
implement the program with rural banks—specifically, the Rural Bankers Association of the
Philippines.    Chemonics was expected to provide technical assistance in developing
microfinance regulations, as well as training to help the association and the rural banks achieve
the six objectives.

                              Table 1. Primary Objectives for Phase Four
            Objective                                          Description
    1. Continued expansion of
                                   The number of banks participating in the program will increase, as
       the number of banks
                                   will the number of microfinance clients and the total value of loans
       participating in the
                                   distributed.
       program
    2. Full rollout of the
                                   Banks will provide agricultural loans to farmers, taking into
       microagricultural loan
                                   consideration nonfarm income to mitigate risk.
       product
                                   Banks will work with cell phone service providers to bring about an
    3. Mobile phone banking        expansion of mobile phone banking—e.g., use of electronic
                                   remittances and repayment of loans through mobile phones.
    4. Microinsurance for          Banks will provide life and hospitalization insurance to microfinance
       microfinance clients        clients.


1
  The Philippines Central Bank defines a microenterprise as an enterprise employing fewer than ten
individuals and with total assets of less than the equivalent of about $30,000.
2
  The MABS program began in 1997.


                                                                                                           1
            Objective                                         Description
                                 Banks will provide loans to low-income people, both in urban and
    5. Microhousing credit       semiurban communities, for renovation or expansion of an existing
                                 home, a land purchase, or basic infrastructure (plumbing/sewage).
                                 When new legislation is enacted, the program will work with the
                                 Philippine Central Bank to help ensure that microenterprise clients‟
    6. Credit bureau
                                 information is captured in the credit bureau database, and work with
       establishment
                                 all participating banks as they develop and implement procedures to
                                 collect and share credit histories promptly and efficiently.

The objective of the audit was to determine whether the program was achieving its main goal of
increasing economic growth by assisting rural banks to provide financial services to
microenterprises profitably.

Although progress has been made in increasing the number of participating banks and
increasing the number of microfinance clients with loans, the impact on overall economic growth
is unclear. For example, a majority of borrowers interviewed who received standard
microfinance or microagricultural loans indicated their personal income had increased.
However, it was unclear what impact, if any, mobile phone banking and microinsurance had
(page 7). An area in which the rural banks and other implementing partners, such as insurance
companies, consistently thought that the contractor excelled was in helping pass microfinance
regulations. The program directly influenced seven and indirectly influenced six regulations
supporting microfinance in rural banks. A complete list of program targets and results appears
in Appendix III of this report.

The audit disclosed the following problems with the program:

    Progress lagged on achieving the targets for four program objectives (page 4). According to
    the mission, achieving the targets by the end of the program in September 2012 is unlikely.
    Targets relate to increasing microfinance, microhousing, and microagricultural loans, as well
    as to expanding mobile phone banking services3.

    Access to microfinance declined in the Autonomous Region of Muslim Mindanao (page 6).
    During MABS Phase Two, three banks served microenterprises; now, because of security
    concerns, only two banks do.

    The mission did not plan an evaluation of Phase Four (page 7). Noting they had done
    evaluations during the previous phases, officials redirected to higher-priority activities the
    funding that had been set aside for a Phase Four evaluation. Yet without it, the mission will
    not be able to gauge the effectiveness of the products introduced in Phase Four—such as
    mobile banking services—or gather and share lessons learned with the rest of the Agency.

    A poverty assessment tool produced questionable results (page 8). The tool likely
    underreported the percentage of very poor people benefiting from the program, which
    USAID and Congress seek to boost.



3
  In response to the draft report, the mission provided updated results, included in Appendix II. The
supplemental data shows additional progress on all the indicators but insufficient progress on the two
microagricultural measures.


                                                                                                        2
   The mission did not prepare required contractor performance reviews (page 8). Without
   complete, regular reviews, USAID cannot make informed acquisition decisions.

The report recommends that USAID/Philippines:

1. Evaluate Phase Four of the MABS program, and document best practices (page 7).

2. Complete contractor performance reviews on Chemonics International Inc. under Phase
   Four of the MABS program as required (page 9).

Detailed findings follow. The audit scope and methodology are described in Appendix I. Our
evaluation of management comments is included on page 10, and the full text of management
comments appears in Appendix II.




                                                                                        3
AUDIT FINDINGS
Progress Lagged on Four Objectives
The mission established targets under the Phase Four contract that were to be achieved by the
end of the program, including the number of clients that would receive microfinance, housing,
and agricultural loans and the number registered to use mobile banking services.
Subsequently, the mission decided to end the program early, in September 2012, and revised
its targets. This is the last phase of the program.

However, as of August 31, 2011, the program had not made expected progress on the targets
for four program objectives. According to the mission, achieving the targets by the end of the
program is unlikely because these targets were less than 75 percent completed—in some
cases, much less. Table 2 presents the objectives and their indicators (measures), along with
their revised Phase Four targets and cumulative reported results; Appendix III presents this
information for all program objectives.

                     Table 2. Phase Four Indicators: End-of-Program Targets and
                              Results Through August 31, 2011* (Audited)

                                                                                         Percent of
                                                                            Reported
       Objective                Performance Indicator            Target                   Target
                                                                             Result
                                                                                         Achieved
                       Number of new depositors at
    Microfinance                                                 389,750     81,231         20.8
                       participating banks
    Microhousing       Number of housing loans to clients        4,000       2,976          74.4
                       Number of small farm loans                22,500      13,802         61.3
    Microagriculture   Number of bank branches offering
                                                                   49           19          38.8
                       small agricultural loans
                       Number of rural bank clients registered
                                                                 329,349    236,747         71.9
                       to use mobile phone banking services
    Mobile Banking
                       Value of average monthly mobile                  †            †
                                                                  550           405         73.6
                       phone banking transactions
* In response to the draft report, the mission provided updated results, included in Appendix II. The
supplemental data shows additional progress on all the indicators but insufficient progress on the two
microagricultural measures.
†
    Values expressed in million Philippine pesos.

Several factors stymied progress on these targets, foremost among them delays in passing
banking regulations. Four of the six indicators related to loan types or mobile banking services
that rural banks initially were not allowed to offer. For example, the regulation related to mobile
phone banking was not passed until approximately 11 months after the start of the program,
while the regulations allowing for microhousing and microagricultural loans were not enacted for
another 10 months.

In addition, the audit identified the following hindrances to each objective:




                                                                                                      4
    Microfinance. According to the mission and Chemonics, banks report the net change in the
    number of depositors in accordance with Philippine Central Bank regulations. This means
    that, during a reporting period, if depositors close their accounts or the amount of money in
    them exceeds the Central Bank‟s limit for a microsavings account, the bank subtracts the
    number of holders of these accounts from the number of new depositors to calculate the net
    change. According to Chemonics, the Central Bank has revised its regulations to allow rural
    banks to report all accounts as microsavings that were originally created as microsavings,
    regardless of their current balances, to demonstrate the impact the program has had in
    encouraging individuals to start savings accounts. With this revision, the change in number
    of microsavings accounts from period to period will equal the number of new depositors,
    readily providing data on the program indicator. The mission is currently working with
    Chemonics to recalculate the results for past periods.

    Microhousing loans. The number of microhousing loans was lower than expected for
    several reasons. First, some rural banks were issuing loans for multiple purposes but
    classifying them for only the primary purpose. For example, sari-sari stores4—the biggest
    consumers of microenterprise loans—operate inside shopkeepers‟ houses. Because of this,
    part of the microenterprise loan may go toward remodeling the house—for instance, adding
    a kitchen to enable the sari-sari store to sell food. Second, some rural banks offered only
    microhousing loans to clients who already ran a business and had a microenterprise loan
    history with the bank, thereby eliminating potential microhousing loan clients. Third, not all
    rural banks involved in the MABS program offered the microhousing loans, for reasons
    including lack of market interest and lack of training on this product (not all rural banks
    completed the training offered by MABS). A review of services provided by 24 banks
    disclosed that 33 percent (8 rural banks) did not offer microhousing loans.

    Microagricultural loans. Of the 24 rural banks reviewed, 58 percent (14) did not even offer
    microagricultural loans. Microagricultural loans under the MABS program must compete
    with a similar government-guaranteed agricultural loan program. Additionally, extreme
    weather conditions in the Philippines have made banks reluctant to lend for agricultural
    purposes. Hence, rural banks typically direct qualified farmers to apply under the
    government-guaranteed loan program. One bank official, for example, reported having a
    portfolio worth approximately 100 million Philippine pesos ($2.4 million) of such government-
    secured loans.

    Mobile banking. Of the 24 rural banks reviewed, 42 percent (10) did not offer mobile phone
    services. Mobile phone banking has not taken off as quickly as envisioned, for several
    reasons. First, limited mobile phone infrastructure (such as cell towers), especially in
    extremely rural areas, hinders use of the service. Another obstacle is the lack of available
    vendors (sari-sari stores) in rural areas to act as intermediaries between clients and rural
    banks. These vendors would be the ones accepting cash from clients and transferring the
    payment to the ultimate recipient, such as a relative or a business for payment of bills.
    Another limiting factor is that the infrastructure for providing such a service has been
    successfully developed by only one of the two major mobile phone service providers in the
    Philippines; clients living in an area dominated by the other mobile phone company were
    excluded. Finally, mobile phone banking in the Philippines is used primarily to send money
    to relatives in a distant province; it is not yet widely used or accepted for the payment of
    goods and services.
4
  A sari-sari store is a convenience store found in the Philippines where a customer can buy units of a
product rather than a whole package—e.g., one cigarette versus a pack.


                                                                                                     5
Because of budgetary constraints, the mission has decided to end the program by
September 30, 2012. Because the program is ending early and because most of the issues are
beyond the mission‟s control, we are not making any recommendations.

Access to Microfinance Declined
in the Autonomous Region of
Muslim Mindanao
The Autonomous Region of Muslim Mindanao (ARMM) was created through free elections in
1989 to resolve an ongoing conflict with Muslim rebels. The region is self-governing under
shari‟a law. ARMM currently consists of five provinces and one city. According to the contract,
during Phase Four Chemonics was to continue efforts to substantially expand the number of
participating banks and microenterprise clients in Muslim areas of Mindanao.

While some progress was initially made to establish access to microfinance services in ARMM
during Phase Two of the MABS program (October 2001 through September 2004), no additional
rural banks provided microfinance services in ARMM under Phase Four. In fact, since Phase
Two, the number of banks providing microfinance services in ARMM has declined from three to
two.

Two primary factors prevented the program from expanding in ARMM: poor security and banks‟
lack of capital. According to Chemonics, even though feasibility studies showed demand for
microfinance activities in two ARMM provinces, rural banks were hesitant to establish a
presence there because of poor security. In interviews with auditors, officials from three banks
in Mindanao cited fears of kidnappings and threats against employees. One banker said he
would not expand even in his own province in Mindanao, which is outside ARMM, because of
security concerns. In terms of capital, the program does not provide additional funds for
expansion, because it seeks to shift the risk and decision making for microfinance to the rural
banks. According to Chemonics and the rural banks whose staff we interviewed, this lack of
funds prevented banks from expanding.

The impact of not being able to expand in ARMM can be measured in terms of the number of
people the program could not reach with microfinance services. According to the 2007
Philippines census, 4.1 million people or approximately 19 percent of the Mindanao population
lives in ARMM. Furthermore, the 2009 Philippine official poverty statistics—the most recent
available—show that 38.1 percent of ARMM families are below the poverty level (16,334 pesos
per month or approximately $380), the second highest rate of poverty among the country‟s
17 regions. By not being able to expand in ARMM, the program lost an opportunity to reach out
to a significant portion of Mindanaons below the poverty line.

Because the insecure environment is beyond the mission‟s control and the program is ending
earlier than originally planned, we are not making any recommendations.




                                                                                              6
Mission Did Not Plan an
Evaluation of Phase Four
According to USAID‟s Automated Directives System (ADS), Section 203.3.6,5 an evaluation
provides “a systematic way to gain insights and reach judgments about the effectiveness of
specific activities, the validity of a development hypothesis, the utility of performance monitoring
efforts,” factors in the development context that may affect the achievement of results, and the
types of actions that need to be taken to improve performance. Furthermore, ADS 203.3.6.14
states that an evaluation should occur near the end of a program and document lessons that
can improve future programming.

USAID/Philippines has not performed, nor does it plan to perform, a program evaluation of
Phase Four. The mission completed four evaluations under the previous MABS phases,
covering the impact that access to microfinance loans has on borrowers‟ savings, income, and
employment. The most recent was completed in July 2006. However, the prior evaluations did
not cover the new products under Phase Four, such as microinsurance, microagricultural loans,
microhousing loans, and mobile phone banking services. Furthermore, these evaluations did
not document best practices that could be shared throughout the Agency.

According to officials, the mission is not completing an evaluation of this final phase MABS
because it is redirecting to higher program priorities funds set aside for a contracted evaluation.
Furthermore, officials said that because the mission does not intend to have a follow-on
microfinance program, an evaluation would not be beneficial. Although no formal microfinance
follow-on program is planned, one of the components of Phase Four—mobile banking—is being
established as a follow-on program and would benefit from an evaluation. Finally, an evaluation
is useful not only for the mission, but for the Agency as a whole. In Phase Four the mission went
beyond offering traditional microfinance loans, and documenting best practices would be
valuable.

By not performing an evaluation, the mission will not know whether the program‟s goal of
increasing economic growth was met, whether the new products contributed to the achievement
of the program‟s goal and were worth the investment made by USAID/Philippines, or whether
they benefited service providers such as the rural banks and insurance companies.

Furthermore, the prior evaluations did not document best or new practices employed by the
rural banks. One rural bank whose officials we interviewed established a unit to help
microentrepreneurs with budget management and business development. Bank officials said
the unit improved their clients‟ businesses. Best practices such as this should be documented
and available to those in the Agency developing other microfinance programs.

    Recommendation 1. We recommend that USAID/Philippines, in accordance with
    Automated Directives System 203, evaluate Phase Four of the Microenterprise Access
    to Banking Services Program and document best practices.




5
 ADS 203 has been updated since completion of the fieldwork. We used the version of ADS 203 dated
August 4, 2011, which was in effect at the time of the audit.


                                                                                                  7
A Poverty Assessment Tool
Produced Questionable Results
According to ADS 219.3.6.2, “the Microenterprise Results and Accountability Act of 2004 (Public
Law 108-484) requires that USAID develop and certify „low-cost methods‟ to measure the share
of the beneficiaries of USAID-funded microenterprise programs who are „very poor‟ as defined
in the law.” USAID refers to these low-cost methods as Poverty Assessment Tools (PATs).
PATs are short, country-specific client surveys consisting of 15 or so questions about household
composition, education, and ownership of various items. The surveys are administered to
random samples of clients, providing a basis for estimating how many are very poor. However,
survey results appear to underreport the number.

The PAT developed for the Philippines in 2007 has ten questions about the number of family
members aged 17 or under, materials used in home construction, the type of bathroom facility
available, school attendance, and salaried employment. Four of the ten questions pertain to
material possessions of the household, including the number of radios and televisions and
ownership of a sala (living room) set. The most recent PAT, a December 2011 survey of 420
rural bank clients supported by the program, concluded that 11.8 percent of households were
very poor, living on less than $1 per day.

The audit team‟s observations, site visits, and interviews with the mission and the contractor
suggest that a poverty rate of 11.8 percent could be understated, thereby understating the
program‟s accomplishments. The survey counts certain consumer goods owned by the family—
such as discarded TVs, radios, and furniture—as assets or wealth. The survey developers may
not have known that in the Philippines such discarded consumer goods can be acquired for very
little or no money through junk stores or by scavenging; possessing these consumer items does
not remove households from a class of extreme poverty.

According to mission officials, they have not communicated concerns about the PAT to USAID‟s
Bureau for Economic Growth, Agriculture and Trade,6 which commissioned the survey.
Because the mission does not plan a follow-on microfinance program that would necessitate a
PAT, we are not making a recommendation. However, if the situation changes, we suggest that
the mission communicate its concerns formally to that bureau.

Mission Did Not Complete
Contractor Performance Reviews
as Required
Federal Acquisition Regulation 42.1502 requires agencies to evaluate contractor performance
and prepare a performance report on contracts that exceed the simplified acquisition threshold,
which is currently $150,000. Similarly, USAID Acquisition Regulation 742.15 (also known as
Title 48 of the Code of Federal Regulations, Part 742, Section 1502) requires contracting
officers to report on contractor performance at least annually. The U.S. Government
Accountability Office states that the government‟s high “reliance on contractors makes it critical
that agencies have the information necessary to properly evaluate a contractor‟s prior history of
performance and better inform agencies‟ contract award decisions.”7
6
 On April 25, 2012, the name became the Bureau for Economic Growth, Education, and Environment.
7
  “Federal Contractors—Better Performance Information Needed to Support Agency Contract Award
Decisions,” Report No. GAO-09-374, April 2009.


                                                                                                8
The mission should have completed three performance reviews by May 2011, 3 years into the
contract. However, as of February 2012, the mission had only draft versions of the required
reviews available. Although the mission‟s Office of Regional Procurement had substantially
completed (had obtained contractor comments on) the first two of the three required annual
contractor performance reviews, the reviews were not entered into the online central database
and were still considered “in progress.” The third evaluation, which was to have been
completed in May 2011, was just being started.

The performance reviews were not completed in the new system because only one person at
the mission was assigned to complete all tasks required for filing the reviews, required training
on the new system was difficult to obtain, and turnover was high among contracting officers.
The mission stated that when the new system was being implemented, the contracting officer
designated to himself responsibilities for tracking, initiating, and approving the reviews. In
retrospect, the mission stated that this was too much responsibility and work for one individual
and that some of the tasks should have been assigned to a local staff member to ensure
continuity during U.S. staff rotations. The mission has now delegated the tracking and initiation
of reviews in the new system to a local employee.

Regarding training, the mission commented that obtaining training was and is still challenging.
There is currently a waiting list for the required online system training, and the training is offered
only late at night in the Philippines because of differences in time zones. The mission has
enrolled the assigned local staff member in the training, and once the training is completed, a
contracting officer will be assigned to complete the reviews.

Regular, comprehensive, and conscientious performance reviews can provide the mission with
information to make better acquisition decisions and can serve as a significant incentive to
contractors to provide USAID with superior products and services. Further, the U.S.
Government Accountability Office has ruled that failure to document contractor performance
information properly and make it available in source selections for the same or similar items is a
sufficient basis to sustain a protest of a contract award.

   Recommendation 2. We recommend that USAID/Philippines complete contractor
   performance reviews on Chemonics International Inc. under Phase Four of the
   Microenterprise Access to Banking Services Program as required.




                                                                                                    9
EVALUATION OF MANAGEMENT
COMMENTS
The Office of Inspector General has reviewed the mission‟s response to the draft report and
determined that management decisions have been reached on the two recommendations. The
status of each of the two recommendations is shown below.

Recommendation 1. The mission agreed to design a MABS Phase Four evaluation that will
measure the impact of the program against its goals and to document best practices developed
as well as lessons learned from the implementation of the project. USAID will make the results
of this evaluation available to other missions by adding them to the Development Experience
Clearinghouse, found on the Agency‟s Web site. The mission anticipates completing the
evaluation by March 31, 2013. On the basis of the mission‟s proposed actions, a management
decision has been reached.

Recommendation 2. The mission agreed and said that the required contractor performance
reviews will be completed when the contractor review system is operational in the mission. The
mission stated that the reviews will be done as soon as possible but no later than 6 months from
the date of the audit report—November 24, 2012. On the basis of the proposed actions, a
management decision has been reached.

Furthermore, the mission provided updated results as of December 31, 2011, related to the
indicators in the first finding that were shown to be lagging. The updated data (on pages 15-16)
demonstrates that the mission is now making progress on all its indicators but that progress on
two—the number of microagriculture loans offered to farmers and the number of bank branches
offering the microagricultural loan product—is insufficient, as both still fall below 75 percent of
the target.




                                                                                                10
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether Phase Four of the USAID/Philippines MABS
program was achieving its main goal of increasing economic growth by assisting rural banks to
provide financial services to microenterprises profitably.         To implement the program,
USAID/Philippines awarded a $9.7 million, time-and-materials task order under the Global
Business, Trade, and Investment II indefinite quantity contract with Chemonics, effective May 1,
2008, through March 1, 2013. As of March 19, 2012, the mission planned to revise the task
order ceiling price to $7.6 million and advance the end date to September 30, 2012. As of
October 2011, cumulative obligations and disbursements under the program totaled $7.6 million
and $5.6 million, respectively.

The audit was performed in the Philippines from November 21, 2011, through March 19, 2012,
and covered reported results from the inception of the program on May 1, 2008, through
September 30, 2011.           Fieldwork was conducted at the offices of the following:
USAID/Philippines, Chemonics (home office in Manila), two partners assisting with the
implementation of the microinsurance component, one partner involved in the mobile banking
component of the contract, a credit bureau, and selected program-supported rural banks to
interview staff and bank clients receiving services. The selected program activities were located
in the Luzon, Visayas, and Mindanao Regions.

In planning and performing the audit, the audit team assessed management controls related to
management review, proper execution of transactions and events, and performance targets and
indicators. Specifically, we reviewed and evaluated the following:

   Program work plans for FYs 2008 through 2012
   FY 2009 and 2010 Operating Plans
   Certification required under the Federal Managers‟ Financial Integrity Act of 1982
   Contract and modifications
   Reported results
   Financial reports
   Program evaluations
   Contractor quarterly reports
   USAID/Philippines contractor performance reports




                                                                                               11
                                                                                      Appendix I


Methodology
To determine whether the program was achieving its main goal, the audit team initially
interviewed key staff at USAID/Philippines and at the contractor‟s office in Manila to gain an
understanding of the program, the key players and their roles and responsibilities, and the
reporting procedures and controls for monitoring the program. Additional work to answer the
audit objective entailed conducting site visits to interview regional bank representatives and
observe program-sponsored activities.

To determine the reliability of computer-processed data received from the mission in support of
its obligated and disbursed amounts, we reviewed prior audits of the mission‟s financial
statements and internal controls. To determine the reliability of computer-processed data on the
program‟s reported activities contained in the contractor‟s information management system, we
selected a judgmental sample of 10 rural banks out of 71 covering all three regions and
obtained an understanding of the internal controls used to validate computer-processed data
before it is distributed to Chemonics for consolidation. For the ten judgmentally selected banks,
we also obtained a listing of active borrowers during November or December 2011, representing
approximately $3.7 million in microloans, and (1) validated a random sample of 60 microloan
transactions valued at approximately $60,000 using supporting loan documentation and (2)
verified a random sample of 76 microloan balances valued at approximately $42,000 through
interviews with bank clients. During client interviews we also validated the existence of their
microsavings accounts. While the results of the random sample can be projected to the ten
rural banks selected, they cannot be projected to all banks participating in the program. We
also reviewed supporting documentation to verify a judgmental sample of conclusions and
statements made in the contractor‟s quarterly reports. Because of the audit procedures
performed, we considered the computer-processed data used during the audit to be reliable.

The audit team established a materiality threshold of 10 percent to assess the test results. For
example, if there was an error rate of 10 percent or less in the loan data validated through the
random samples, we considered the reported results based on this data reasonably accurate.




                                                                                              12
                                                                              Appendix II



MANAGEMENT COMMENTS


MEMORANDUM

TO           :      Bill Murphy, Regional Inspector General

FROM         :      Gloria D. Steele, Mission Director (signed in original copy dated
                    April 27, 2012)

SUBJECT      :      Audit of USAID/Philippines‟ Microenterprise Access to Banking
                    Services-4 (MABS-4) Program


USAID/Philippines thanks the Regional Inspector General (RIG) for the professional and
constructive manner in which the audit was conducted. The Mission agrees that the
implementation of the audit recommendations will help improve the various aspects of
the MABS-4 Program.

The actions planned by the Mission to address the audit recommendations are as
follows:

Recommendation #1: We recommend that USAID/Philippines perform an
evaluation of the Philippines’ Microenterprise Access to Banking Services Phase
Four program in accordance with Automated Directives 203 that assesses the
impact of the program on its goals and documents best practices for use within
the Agency.

      Mission Response: USAID/Philippines concurs with the recommendation.
      USAID/Philippines will design a MABS4 evaluation activity that will measure the
      impact of the program against intended goals, and document best practices
      developed as well as lessons learned from the implementation of the project.
      USAID will make the results of this evaluation widely available by posting this in
      the Development Exchange Clearinghouse website so that other Missions may
      benefit from USAID/Philippines‟ experience in the implementation of the MABS4
      Program.

       Given the current Mission workload, the MABS evaluation of impact will be
       contracted during the first quarter of the coming fiscal year (sometime between
       October to December 2012) when the current rush of critical PFG procurement



                                                                                         13
                                                                                         Appendix II


       actions would have been completed. The Mission will target a completion date of
       March 31, 2013 for the MABS4 evaluation.

       Based on the actions identified above, USAID requests RIG/Manila‟s
       concurrence that a management decision has been reached.


Recommendation #2: We recommend that USAID/Philippines complete the
required contractor performance reviews on Chemonics International Inc. under
the Microenterprise Access to Banking Services Phase Four program as
required.

       Mission Response: The required contractor performance reviews will be
       completed when the CPARS system is operational in the Mission. This contract
       will be prioritized at that time. The reviews will be done as soon as possible but
       no later than six months from the date of the audit report.

       Based on the actions identified above, USAID requests RIG/Manila‟s
       concurrence that a management decision has been reached.


In addition to Mission Response to RIG/Manila‟s two recommendations above, Mission
offers the following response to the Audit Finding listed below:


Finding: Program Targets Unlikely to be Achieved for Four Objectives

       Mission Response: Since the latest data available at the time of the audit was
       August, 2011, we would like to provide updated numbers to present a more
       accurate assessment of the Program‟s performance against targets. Based on
       these more recent MABS4 performance data (as of Dec. 31, 2011), only one out
       of five (5) MABS4 Project objectives is unlikely to be achieved. As stated in the
       audit report, factors beyond the Mission‟s control such as competition posed by
       highly subsidized government agri-loan, programs are making it difficult for the
       rural banks to offer micro-agricultural loans at rates that will allow them to cover
       their costs.

Latest available performance results data, when measured against the targets will yield
the following results: See Table 1 below:


                                                  Life of Project
                                                      Target         Life of Project    % of Life of
                                                     through        Results through    Project Target
    Objective    Performance Indicator              9/30/2012         12/31/2011         Achieved
Microfinance     Number of new micro-depositors
                                         1           389,570           357,714             91.8%
                 at participating banks.



                                                                                                    14
                                                                                              Appendix II


Micro-housing
                     Number of micro-housing clients            4,000              3,434      85.9%
Micro-agriculture    Number of micro-agriculture loans
                                                               22,500             14,997      66.7%
                     to small farmers
                     Increase the number of bank
                     branches offering micro-                     49                20        40.8%
                     agriculture loan products
Mobile Banking       Number of rural bank clients
                     registered to use mobile phone            329,349           259,062      78.7%
                     banking services
                     Average monthly mobile phone
                                                                 550               619.5      112.6%
                     banking transactions (PHP million)



Table 2 of the MABS 4 audit report which presents an expanded table of project
indicators is also updated to reflect data as of December 31, 2012.



                                                               Life of Project   % of Life
                                           Life of Project         Results       of Project
                                          Target through          through         Target
Indicator                                    9/30/2012          12/31/2011       Achieved
1. Expand Access to Microfinance
Increase number of rural bank
                                                       310                306        98.7%
branches participating in MABS.
Number of microenterprise borrowers
                                                  450,396              449,006       99.7%
at participating banks.
Number of new micro-depositors at                 389,570              357,714       91.8%
                     1
participating banks.
Increase in cumulative amount of
                                                    24.00                21.57       89.9%
micro-loans disbursed. (PhP Billions)
2. Micro-Agriculture Loans
Number of micro-agriculture loans to
                                                   22,500               14,997       66.7%
small farmers.
Increase the number of bank branches
offering the micro-agriculture loan                       49                20       40.8%
product.
3. Mobile Banking
Expand number of rural banks offering
                                                       645                838       129.9%
mobile phone banking.
Number of rural bank clients registered
                                                  329,349              259,062       78.7%
to use mobile phone banking services.2
Average monthly mobile phone
                                                       550               619.5      112.6%
banking transactions (PHP million)
4. Micro-insurance 3
Number of banks offering micro-
                                                       119                122       102.5%
insurance.




                                                                                                       15
                                                                                                           Appendix II


 Number of clients covered by micro-
                                                       150,000            472,671       315.11%
 insurance.
 5. Micro-housing
 Number of participating banks offering
                                             50-100                             72      100.00%
 micro-housing products.
 Number of micro-housing clients.                        4,000              3,434        85.85%

 3 Insurance numbers dramatically increased from August 2011 numbers reflecting the lagged benefits of the
clarification in regulations which the project successfully worked on in the initial years of the life of project. The
clarification effectively allowed rural banks to offer Microinsurance and offer it to a broader definition of clients.
There was also a lag in the effects of training of both the clients and the micro-insurance providers.




                                                                                                                         16
                                                                                    Appendix III


                                TARGETS AND RESULTS
                                              (Audited)
                                  FY 2011                 Program     Cumulative
                                                 % of                                  % of
                     FY 2011     Result as                  Target       Result
     Indicator                                  Target                                Target
                      Target         of                   Through      Through
                                               Achieved                              Achieved
                                 8/31/2011                9/30/2012    8/31/2011
1. Access to Microfinance
Increase in number
of rural bank
branches                 50         13           26.0       310          271           87.4
participating in
MABS
Number of
microenterprise
                      80,000     131,537         164.4    450,396      407,750         90.5
borrowers at
participating banks
Number of new
microdepositors at    75,000      81,231         108.3    389,750       81,231         20.8
participating banks
Increase in
cumulative amount
                       5.10*       5.99*         117.5      24*          19*           79.2
of microloans
disbursed
2. Microagricultural Loans
Number of
microagricultural
                      6,600       3,066          46.5      22,500       13,802         61.3
loans to small
farmers
Increase in number
of bank branches
offering the             14         2            14.3        49          19            38.8
microagricultural
loan product
3. Mobile Banking
Expand number of
rural banks offering
                        184        164           89.1       645          789           122.3
mobile phone
banking
Number of rural
bank clients
registered to use     76,977     160,177         208.1    329,349      236,747         71.9
mobile phone
banking services
Average monthly
mobile phone                †             †                       †             †
                       325        404.8          124.6      550         404.8          73.6
banking
transactions
4. Microinsurance
Number of banks
offering                 35         36           102.9      119          111           93.3
microinsurance
Number of clients
covered by               —       352,931          N/A     150,000      378,359         252.2
microinsurance



                                                                                               17
                                                                                      Appendix III


                                    FY 2011                  Program     Cumulative
                                                    % of                                 % of
                       FY 2011     Result as                   Target       Result
     Indicator                                     Target                               Target
                        Target         of                    Through      Through
                                                  Achieved                             Achieved
                                   8/31/2011                 9/30/2012    8/31/2011
5. Microhousing
Number of
participating banks
offering                  15           10           66.7        50          66           132.0
microhousing
products
Number of
                         2,000        1,182         59.1      4,000        2,976         74.4
microhousing clients
* Amount expressed in billion Philippine pesos.
†
  Amount expressed in million Philippine pesos.




                                                                                                 18
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
